App. 1
IN THE UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
EDWARD RONNY ARNOLD )
)

Plaintiff,
v.

)

) No. 3:18-00541
)

BURNS PHILLIPS,
Defendant.

)Judge Campbell
)Magistrate
)Judge Frensley
)(Filed 4/01/19)
)

DENIAL OF ENTRY OF DEFAULT
Pending are Plaintiffs Requests for Entry of
Default Pursuant to Rule 55(a) of the Federal Rules of
Civil Procedure as to Defendant Burns Phillips (Doc.
Nos. 9 and 12).
The complaint names Burns Phillips as the sole
Defendant in this action. (Doc. No. 1 at 1). Plaintiff
served the complaint and summons on “Burns
Phillips, Commission [sic] of the State of TN Dept, of
Labor & Workforce Dev.” at the mailing address of
Herbert Slatery III, Rachel Jackson Building, 320 6th
Avenue North, Nashville, Tennessee 37243 on June
Case 3:18-CV-00541 Document 22 Filed 04/01/19
Page 1 of 2 PagelD #: 87

App. 2
13, 2018. (Doc. No. 2). (Doc. No. 2 at 1). Neither the
complaint nor the summons identifies the capacity in
which Defendant Phillips is sued.
On March 12, 2019, the Attorney General for the
State of Tennessee, by special appearance on behalf of
Commissioner Burns Phillips, filed a response in
opposition to Plaintiffs request for entry of default.
(Doc. No. 9). The Attorney General argues that service
was improper as to Defendant Phillips in both his
individual and official capacities. {Id. At 1-2).
The Clerk finds the entry of default against
Defendant Phillips is not appropriate at this time.
First, under the Servicemenbers Civil Relief ACT
(SCRA), a plaintiff must submit an affidavit stating
whether the defendant is in military service or stating
that the plaintiff is unable to determine whether the
defendant is in military service. 50 U.S.C. §
3931(b)(l)(A)(B). Plaintiff has not submitted an
affidavit of military service as required by the SCRA.
In addition, Plaintiff has not submitted an affidavit
stating that Defendant is not an infant or incompetent
person. See United States v. Hertzberg, No. l:ll-cv150, 2012 WL 523651, at *3 (E.D. Tenn. Jan. 25,
2012); Broadcast Music, Inc. v. Marler, No. l:09-cv193, 2009 WL 3785878, at *4 (E.D. Tenn. Nov. 12,
2009).
Further, there are questions as to whether the
Plaintiff properly served Defendant Phillips in his
individual or official capacity. Finally, the Attorney
General, making a special appearance on behalf of
Commissioner Phillips in his official capacity, has

App. 3
evidenced an intent to defend against this action.
(Doc. No. 14).
Accordingly, the Clerk declines to enter default as
to Defendant Burns Phillips. Therefore, Plaintiffs
Motion for Entry of Default Pursuant to Rule 55(a) of
the Federal Rules of Civil Procedure (Doc. Nos. 9 and
12) are DENIED.
/s/

Vicki R.Kinkade
Vicki R. Kinkade
Acting Clerk of the Court

Case 3:18-CV-00541 Document 22 Filed 04/01/19
Page 2 of 2 PagelD #: 88

App. 4
Case: 19-5362 Document: 5-2 Filed: 05/15/2019 Page:
1 (2 of 3)
No. 19-5362
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
EDWARD RONNY ARNOLD
Plaintiff(s)

)

v.

) ORDER
) (Filed 05/15/2019)

BURNS PHILLIPS,
Commissioner
Department of Labor
and Workforce Development
Defendant(s)

)
)

)
)
)
)
)
)

Before: CLAY, McKEAGUE, and KETHLEDGE,
Circuit Judges.

This matter is before the Court upon initial
consideration to determine whether this appeal was
taken from an appealable order.
Edward Ronny Arnold filed this action for
declaratory and injunctive relief alleging an incorrect
state-court judgement on his unemployment benefits
and alleged violations of the Federal Records Act. On

App. 5
Case 19-5362 Document: 5-2 Filed: 05/15/2019 Page
2 (3 of 3)
April 1, 2019, the acting clerk of the court entered
an order that denied Arnold’s motion for entry of
default against Burns Phillips, the sole defendant to
this action. On April 9, 2019, Arnold filed a notice of
appeal from the April 1, 2019 order.
This court lacks jurisdiction over this appeal. No
final or appealable order terminating all of the issues
in the litigation has been entered. See Firestone Tire
& Rubber Co. v. Risford, 449 U.S. 368, 373-74 (1981);
Bonner v. Perry, 564 F. 3d 424. 426-27 (6th Cir. 2009).
An order denying a motion for entry of default is
not immediately appealable. McNutt v. Cardox Corp,
329 F. 2d 107, 108 (6th Cir. 1964).
Accordingly, it is ordered that the appeal is
DISMISSED.

ENTERED BY ORDER OF THE COURT
/si

Deborah S. Hunt
Deborah S. Hunt, Clerk

App. 6
IN THE UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
EDWARD RONNY ARNOLD)
Plaintiff(s)
)
)

v.

)
)
)
)

BURNS PHILLIPS,
Commissioner
Department of Labor
and Workforce
Development
Defendant(s)

)

Case No. 3:18-0541
Judge Campbell /
Frensley
(Filed 2/25/19)

)
)
)
)
)

ORDER
This is a pro se action raising claims under 42
U.S.C. § 1981. Plaintiffs Complaint was filed June 11,
2018. Docket No. 1. A review of the file indicates that
summons was issued on June 11, 2018 (Docket No. 2),
and the filing fees received on June 12, 2018 (Docket
No. 3). Upon payment of the filing fee,
Plaintiff is responsible for service of the
summons according to Rule 4 if the Federal Rules of
Civil Procedure. Copies of his documents and other

App. 7
notices regarding federal lawsuits were mailed to
Plaintiff on June 12, 2018.
Therefore, Plaintiff Edward Ronny Arnold is
ORDERED to show cause on or before March 18,
2019, why his complaint should not be dismissed
without prejudice for failure to prosecute. Plaintiff is
reminded that his failure to comply with this Order
may cause the undersigned to recommend his
complaint be dismissed.
IT IS SO ORDERED
Is/

Jeffery S. Frensley
JEFFERY S. FRENSLEY
United States Magistrate Judge

Case 3:18-cv-00541 Document 7 Filed 02/25/19 Page
1 of 1 PageID#:18

App. 8
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE

EDWARD RONNY ARNOLD ( NO: 3:18-cv-00541
Plaintiff,

(Primary
( Judge Campbell
( Magistrate
Judge ( Frensley
(NO: M2017-01103COA-RS-CV
( Secondary

BURNS PHILLIPS,

(

COMMISSIONER STATE OF (
TENNESSEE DEPARTMENT (
OF LABOR AND
(
WORKFORCE
(
DEVELOPMENT
(
Defendant,

(
(

PLAINTIFFS SHOW CAUSE SERVICE OF
SUMMONS AS RECORDED BY THE UNITED
STATES DISTRICT COURT FOR THE MIDDLE
DISTRICT OF TENNESSEE COURT CLERK

App. 9
Comes Plaintiff Edward Ronny Arnold, Pro Se,
respectfully responding to an Order issued by the
Honorable Magistrate Judge Jeffrey S. Frensley
February 25, 2019 concerning Service of Summons.
This Civil Action was filed June 11, 2018 due to the
Tennessee Supreme Court’s denial APPLICATION
TO APPEAL May 16, 2018 in the case of Edward
Ronny Arnold v. Burns Phillips, Commissioner of the
State of Tennessee Department of Labor and Workforce
Development, M2017-01103-COA-R3-CV(Tn. Ct. App.
2018) on appeal from Chancery Court for Davidson
County Case No. 16-1174-IV Honorable Russel T.
Perkins Chancellor.
Jurisdiction in this Court over the Plaintiffs
claims are brought pursuant to 42 U.S.C. § 1983 is
provided by 28 U.S.C. §§ 1331 and 1343 (3). The
declaratory and injunctive relief sought is authorized
by 28 U.S.C. §§ 2201 and 2201, 42 U.S.C. §1983, and
Rule 57 of the Federal Rules of Civil Procedure.
In this case, the Defendant, Burns Phillips,
Commissioner of the State of Tennessee Department
of Labor and Workforce Development, was
represented by The State of Tennessee Office of the
Attorney General, Herbert Slatery III, during the
Chancery proceedings, Tennessee Court of Appeals at
Middle District, and the Tennessee Supreme Court.
The Attorney of Record was Derek Green, Assistant
Attorney General. The State of Tennessee Attorney
General and Reporter, Herbert Slatery III, approved
all filings.
Fed. Rule 4 (m) specifies:

App. 10
Fed. Rule 4 (m) - Time Limit for Service. If a
defendant is not served within 90 days after the
complaint is filed, the court—on motion or on
its own after notice to the plaintiff—must
dismiss the action without prejudice against
that defendant or order that service be made
within a specified time. But if the plaintiff
shows good cause for the failure, the court must
extend the time for service for an appropriate
period. This subdivision (m) does not apply to
service in a foreign country under Rule 4(f),
4(h)(2), or 4(j)(l), or to service of a notice under
Rule 71.1(d)(3)(A).

In this case, the Plaintiff met the Time Limit for
Service as recorded by the Court Clerk on June 25,
2018 (Appendix A). In this case, service was
accomplished by the use of U.S Postal Service
Certified Mail Receipt 7017 0660 0000 2312 9967
processed June 11, 2018 (Appendix B) with a return
PS Form 3811 Domestic Return Receipt (Green Card)
dated June 13, 2018 (Appendix C) as proof of service
and as recorded by the Court Clerk on June 25, 2018
on the Return Copy of the Summons in a Civil Action.
Tenn. R. Civ. P. 4.04(6), proper service upon a state
official, requires the Plaintiff to serve notice to the
Attorney General and Reporter or to an Assistant
Attorney General. This was completed as evidenced by
the receipt of the Green Card showing receipt of the
Summons on June 13, 2018.

App. 11
To the Plaintiffs knowledge, the State of
Tennessee Attorney General and Reporter did not
respond to the Summons as required by Tenn. R. Civ.
P. 4.04 (6). The Plaintiff contacted the Court Clerk for
the United States District Court for the Middle
District of Tennessee on the following dates for
notification of a response: 6/21/2018, 6/25/2018,
8/5/2018, 8/6/2018, 8/20/2018, 9/7/2018, 9/18/2018,
9/28/2018, 10/29/2018, 12/03/2019, 3/06/2019.
DEFENDANT’S REPRESENTATIVES WERE
AWARE OF THE CIVIL ACTION

In this case, representatives of the Defendant,
Burns Phillips, Commissioner of the State of
Tennessee Department of labor and Workforce
Development, were aware of the Civil Action.
On September 28, 2018, Assistant Attorney
General Taylor Jenkins, approached the Plaintiff
after a Case Management Conference with Special
Master Mary Ashley Nichols, to request the Plaintiff
send to him a letter stating what the Plaintiff would
require to settle all of the cases. At this time, the
Plaintiff was under the impression the request was
related to the civil action of Edward Ronny Arnold v.
Bob Oglesby, et al. M2017-00808-COA-R3-CV.(Tenn.
Ct. App. 2017) as remanded from the Tennessee Court
of Appeals for the Middle District to the Sixth Circuit
Court for Davidson County, Tennessee. Mr. Jenkins
stated it was for all civil actions, which included

App. 12
federal cases. The Plaintiff did not respond to the
request.
On October 18, 2018, the Plaintiff received a
telephone call from the office of the Commissioner of
Labor and Workforce Development concerning a
telephone call initiated by the Plaintiff concerning the
location of a State employee in the Knoxville,
Tennessee office in preparation for an interrogatory
on the civil action of Edward Ronny Arnold v. Bob
Oglesby, et al. M2017-00808-COA-R3-CV.(Tenn. Ct.
App. 2017) as remanded from the Tennessee Court of
Appeals for the Middle District to the Sixth Circuit
Court for Davidson County, Tennessee. In this
conversation, the person was under the impression
the inquiry was related to the civil action in the
United States District Court for the Middle District of
Tennessee.
Assistant Attorney General, William Derek Green,
represented the
Defendant,
Burns Phillips,
Commissioner of the State of Tennessee Department
of Labor and Workforce Development, in Case No. 161174-IV, Chancery Court for the State of Tennessee
Twentieth Judicial District, Davidson County, Part
IV; State of Tennessee Court of Appeals of Tennessee
at Nashville Case No. M2017-01103-COA-R3-CV, on
appeal from Chancery Court for Davidson County
Case No. 16-1174-IV Russell T. Perkins Chancellor
and Application to Appeal to the State of Tennessee
Supreme Court.
As a result of Mr. Green representing the
Defendant in the State of Tennessee Court of Appeals
at Nashville, Mr. Green was contacted by the Court

App. 13
Clerk, James Havner, State of Tennessee Court of
Appeals, in regard to the notification of records
destruction in the case of Edward Ronny Arnold v.
Burns Phillips M2017-01103-COA-R3-CV (Tn. Ct.
App. 2017) dated November 15, 2018 (Appendix D).
The Plaintiff responded to the Court Clerk to
retain the records due to civil actions before the
United States District Court for the Middle District of
Tennessee which included the civil action of Edward
Ronny Arnold v. Burns Phillips, Commissioner State
of Tennessee Department of Labor and Workforce
Development 3:18-cv-00541 (Appendix E).
In this case, a representative of the State of
Tennessee Office of the Attorney General and
Reporter was notified of the civil action through the
Court Clerk for the State of Tennessee Court of
Appeals for the Middle District as evidenced by the
Plaintiffs request to retain the records and the receipt
of the request by Assistant Attorney General William
Derek Green on December 19, 2018 (Appendix F).
CONCLUSION

In this civil action, Edward Ronny Arnold v. Burns
Commissioner
State
of
Tennessee
Phillips,
Department of Labor and Workforce Development,
3:18-cv-00541, filed June 11, 2018, the Plaintiff,
Edward Ronny Arnold, met the Time Limit for
Service as recorded by the Court Clerk on June 25,
2018 (Appendix A). In this case, service was
accomplished by the use of U.S Postal Service

App. 14
Certified Mail Receipt 7017 0660 0000 2312 9967
processed June 11, 2018 (Appendix B) with a return
Green Card dated June 13, 2018 (Appendix C) as proof
of service and as recorded by the Court Clerk on June
25, 2018 on the Return Copy of the Summons in a Civil
Action.
Tenn. R. Civ. P. 4.04(6), proper service upon a state
official, requires the Plaintiff to serve notice to the
Attorney General and Reporter or to an Assistant
Attorney General. This was completed as evidenced by
the receipt of the Green Card showing receipt of the
Summons of June 13, 2018 and complies with Rule 4.
Summons (J) (2) (B) - SERVING A FOREIGN,
STATE, OR LOCAL GOVERNMENT.
Additional information which includes a NOTICE
- Notice (Outgoing) - Destruction of Records by the
Court Clerk for the State of Tennessee Court of
Appeals at Nashville, Edward Ronny Arnold v. Burns
Phillips, Commissioner Tennessee Department of
Labor and Workforce Development, Davidson County
Chancery Court 16-1174-IV, No. M2017-01103-COAR3-CV.(Tn. Ct. App. 2017), provided additional
information to the State of Tennessee Office of the
Attorney General of the civil action of Edward Ronny
Arnold v. Burns Phillips, Commissioner State of
Tennessee Department of Labor and Workforce
Development No. 3:18-cv-00541.
Plaintiff Edward Ronny Arnold, Pro Se,
respectfully responding to an Order issued by the
Honorable Magistrate Judge Jeffrey S. Frensley,
February 25, 2019, Show Cause Service of Summons.

App. 15
Respectfully submitted this 29 day of March, 2019
Respectfully Submitted,
/si

Edward Ronnv Arnold
Edward Ronny Arnold, Pro Se
5036 Suter Drive
Nashville, Tennessee 37211
(615) 999-8044

| -Jrt-**,

T

App. 16
CERTIFICATE OF SERVICE
I hereby certify that a true and exact copy of the
foregoing Plaintiffs Show Cause Service of Summons
as Recorded by the United States District Court for
the Middle District of Tennessee Court Clerk has been
served upon counsel for Defendant by U.S. Mail,
postage prepaid, addressed to:

Herbert Slatery III
State of Tennessee Attorney General and Reporter
Rachel Jackson Building
320 6th Avenue North.
Nashville, Tennessee 37243

On this the

Is/

29 day of March, 2019

Edward Ronny Arnold
Edward Ronny Arnold, Pro Se
5036 Suter Drive
Nashville, Tennessee 37211

App. 17

APPENDIX A: AO 440 Summons in a Civil Action
Return Copy

APPENDIX B: PS Form 3800 U.S. Postal Service
Certified Mail Receipt

APPENDIX C: PS Form 3811 Domestic Return
Receipt (Green Card)

APPENDIX D:

Notice:
Notice
(Outgoing)
Destruction Notification

APPENDIX E: Plaintiffs Response to Notice of
Destruction of Records

APPENDIX F:

PS Form 3811 Domestic Return
Receipt (Green Card)

App. 18
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE

Edward Ronny Arnold
Plaintiff,

)
)
)

v.

) 3:18-cv-0541
)

Burns Phillips, Commissioner )
State of Tennessee Department)
of Labor and Workforce
)
Development
)
Defendant.
)

PLAINTIFFS RESPONSE TO THE SUBMISSION
RELATED TO CLERK OF COURT ENTRY OF
DEFAULT
Comes now Edward Ronny Arnold, Pro Se, and
hereby responds to a submission related to ENTRY
OF DEFAULT by the Clerk of Court in the United
States District Court for the Middle District of
Tennessee in the case of Edward Ronny Arnold v.
Burns Phillips, Commissioner State of Tennessee
Department of Labor and Workforce Development,
3:18-cv-0541 filed June 11, 2018.
The document (s) submitted have no relevance in
this case on the basis that the record demonstrates
that the complaint was filed June 11, 2018 that the
summons and compliant were duly served upon the

App. 19
defendant, Burns Phillips, Commissioner of the State
of Tennessee Department of Labor and Workforce
Development, on June 13, 2018, and no answer or
other pleading has been filed by said defendant as
required by law.
The defendant is in default as provided by Rule
55(a), Federal Rules of Civil procedure.
Electronic filing (CM/ECT) Fed. Rule 5.4.9
SERVICE OF DOCUMENTS BY ELECTRONIC
MEANS requires both parties to consent to electronic
filing. This consent is in written format and provides
evidence to the court both parties have equal access to
the courts. Any and all documents submitted to the
United States District Court for the Middle District of
Tennessee by electronic filing or any and all
documents submitted to the Court Clerk in the United
States District Court for the Middle District of
Tennessee by electronic filing without the written
consent of both parties are invalid.

Respectfully submitted this 26 day of March, 2019
Edward Ronnv Arnold
Edward Ronny Arnold, Pro Se.
5036 Suter Drive
Nashville, Tennessee 37211
(615) 999-8044

Is/

App. 20
No. 19-5737

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
)

EDWARD RONNY ARNOLD
Plaintiff-Appellant
v.

)
)
)
)

BURNS PHILLIPS, Commissioner
State of Tennessee Department of Labor
And Workforce Development
Defendant-Appellee

)
)
)
)
)

PLAINTIFF/APPELLANT'S NOTIFICATION OF
VIOLATION OF RULE 45 (b)

Comes Edward Ronny Arnold, Pro Se, Plaintiff
/Appellant Edward Ronny Arnold v. Burns Phillips,
Commissioner of the State of Tennessee Department of
Labor and Workforce Development No. :3:18-cv-00541
with notification of a violation of Rule 45 (b) Clerk's
Duties to which the Court Clerk for the United States
District Court for the Middle District of Tennessee

App. 21
changed the name of the case without judicial
authority or motion before the court and in so doing
changed the nature of the case.
Rule 25 (c) allows a transfer of interest and is
continued by or against the originating party unless
the court, on motion, orders the transferee to be
substituted in the action or joined with the original
party.
In this case, the Court Clerk for the United States
District Court for the Middle District of Tennessee
substituted the name of Burns Phillips in the civil
action Edward Ronny Arnold v. Burns Phillips,
Commissioner of the State of Tennessee Department of
Labor and Workforce Development No. 3:18-cv-00541
without judicial authority to which the case name was
changed to Edward Ronny Arnold v. Jeff McCord No.
19-5737.
On information and belief this name change is
alleged to have occurred on July 9, 2019 when the
Court Clerk for the United States District Court for
the Middle District of Tennessee processed the appeal
to the United States Court of Appeals for the Sixth
Circuit.
To correct the problem the Court Clerk for the
United States Court of Appeals for the Sixth Circuit
proposed to file an order to which the name Burns
Phillips will be added to the name Jeff McCord, in
essence changing the civil action of the originating
party. The Court Clerk for the United States Court of
Appeals for the Sixth Circuit filed July 15, 2019 an
Order to which Jeff McCord is listed as a Defendant

App. 22
and the Court Clerk incorrectly stated the Plaintiff /
Appellant"... may have been attempting to sue Burns
Phillips individually."
It should be noted before this court, civil action
Edward Ronny Arnold v.
Burns Phillips,
Commissioner of the State of Tennessee Department of
Labor and Workforce Development No. 19-5362 filed
April 11, 2019 in The United States Court of Appeals
for the Sixth Circuit was not changed. The dismissal
of this appeal on May 15, 2019 is in the process of a
Petition On Writ of Certiorari in the Supreme Court
of the United States in the case of Edward Ronny
Arnold v. Burns Phillips, Commissioner State of
Tennessee Department of Labor and Workforce
Development 19-5362.
It is respectfully requested the Court return civil
action 19-5737 to the original name as filed on July 3,
2019 Edward Ronny Arnold v. Burns Phillips,
Commissioner of the State of Tennessee Department of
Labor and Workforce Development No. 19-5737
originating case number 3:18-cv-00541 and remove
the name Jeff McCord.
Respectfully Submitted this July 23, 2019

Is/

Edward Ronny Arnold
Edward Ronny Arnold, Pro Se
5036 Suter Drive
Nashville, Tennessee 37211
(615) 999-8044

